           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      THE DISTRICT OF COLUMBIA’S
 DISABILITY DETERMINATION DIVISION’S
     INTERNAL CONTROLS OVER THE
    ACCOUNTING AND REPORTING OF
        ADMINISTRATIVE COSTS

   March 2008         A-15-08-18019




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      March 20, 2008                                                                 Refer To:

To:        Laurie Watkins
           Regional Commissioner
            Philadelphia

From:      Inspector General

Subject:   The District of Columbia’s Disability Determination Division's Internal Controls over the
           Accounting and Reporting of Administrative Costs (A-15-08-18019)


           OBJECTIVE

           Our objective was to evaluate the District of Columbia’s Disability Determination
           Division's (DC-DDD) internal controls over the accounting and reporting of
           administrative costs.

           BACKGROUND

           The Disability Insurance (DI) program, established under Title II of the Social Security
                     1
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, 2 provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is primarily responsible for implementing
           policies governing the development of disability claims under the DI and SSI programs.
           Disability determinations under both DI and SSI are performed by disability
           determination services (DDS) in each State, or other responsible jurisdiction, according
           to Federal laws and regulations. 3 In carrying out its obligation, each DDS is responsible
           for determining claimants’ disabilities and ensuring that adequate evidence is available
           to support its determinations. To assist in making proper disability determinations, each


           1
               42 U.S.C. § 401, et seq.; 20 C.F.R. Part 404.
           2
               42 U.S.C. § 1381, et seq; 20 C.F.R. Part 416.
           3
             42 U.S.C. §§ 421 and 1382c(a)(3)(H)(i) (2004); 20 CFR §§ 404.1601 et seq. and 416.1001 et seq.
           (2002).
Page 2 - Laurie Watkins


DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. An advance or reimbursement for costs under the program must
comply with Office of Management and Budget (OMB) Circular A-87, Cost Principles for
State, Local, and Indian Tribal Governments. At the end of each fiscal quarter, each
DDS submits a State Agency Report of Obligations for SSA Disability Programs
                                                                                     4
(Form SSA-4513) to account for program disbursements and unliquidated obligations.
The Form SSA-4513 reports expenditures and unliquidated obligations for Personnel
Service Costs, Medical Costs, Indirect Costs, and All Other Nonpersonnel Costs. The
Form SSA-4513 for the DC-DDD for Fiscal Year (FY) 2006 as of March 31, 2007
showed obligations of $5,679,371.

The DC-DDD is a component within the District of Columbia’s Department on Disability
Services (DC-DDS) 5 Rehabilitation Services Administration (RSA). DC-DDD’s sole
function is processing SSA disability determinations. DC-DDD’s financial reporting
functions are primarily the responsibility of the DC-DDS.

We have issued two reports concerning the DC-DDD’s internal controls over the
                                                 6
accounting and reporting of administrative costs. In both reports, we determined the
DC-DDS did not have adequate internal controls in place to monitor its accounting
operations for the DC-DDD. In those reports, we explained that Forms SSA-4513
submitted by the District of Columbia Department of Human Services for FYs 2001 and
2002 contained misstatements, which may lead to incorrect or unintentional
conclusions.

RESULTS OF REVIEW
Since our previous audits, 7 the DC-DDS has made improvements to its internal controls
over the accounting and reporting of FY 2006 administrative costs for the DC-DDD. For
the period of our review, October 1, 2005 through September 30, 2006, we evaluated
the internal controls over the accounting and reporting of administrative costs on the
Form SSA-4513 and found minimal areas in need of improvement. Specifically, we

4
 SSA, Program Operations Manual System (POMS), DI 39506.200 - The Reporting Process - Recording
and Reporting Obligations, section B.4., "…[u]nliquidated obligations represent obligations for which
payment has not yet been made. Unpaid obligations are considered unliquidated whether or not the
goods or services have been received."
5
    Formerly the District of Columbia Department of Human Services.
6
 Administrative Costs Claimed by the District of Columbia Disability Determination Division
(A-15-04-14052) August 13, 2004 and Administrative Costs Claimed by the District of Columbia Disability
Determination Division for Fiscal Years 2001 and 2002 (A-15-05-30018) November 8, 2005.
7
    Ibid.
Page 3 - Laurie Watkins


found the DC-DDD claimed an improper travel cost of $2,750 and lacked support for
$38,103 in telephone costs. Also, the DC-DDD did not claim $183,501 in allowable
occupancy and guard service costs and reported $264,031 of unsupported unliquidated
obligations. Given the number of internal control challenges noted during our former
audit, the DC-DDS should remain vigilant going forward to address any outstanding
internal control weaknesses.

Improper Travel Cost

DC-DDS overcharged DC-DDD $2,750 for a FY 2006 travel cost that was improperly
recorded to DC-DDD. A travel cost that belonged to RSA was recorded as being a
DC-DDD cost. Federal regulations provide that States be reimbursed for expenses
incurred for program purposes. 8 The DC-DDS needs to continue to implement controls
to prevent and/or detect improper charges to the wrong entity.

Unsupported Telephone Costs

Telephone costs of $47,203 9 were based on DC-DDD’s FY 2006 budget estimates. 10
The DC-DDD provided supporting documentation for $9,100 of telephone costs for
FY 2006. OMB Circular A-87 states, “To be allowable under Federal awards, costs
must…be adequately documented.” 11 The DC-DDD should coordinate with the District
of Columbia Office of Property Management (DC-OPM) to obtain supporting
documentation for telephone costs incurred by the DC-DDD. Unsupported telephone
costs was a finding in our audit report, Administrative Costs Claimed by the District of
Columbia Disability Determination Division for Fiscal Years 2001 and 2002
(A-15-05-30018).




8
     20 C.F.R. §§ 404.1626(a) and 416.1026(a).
9
 The management of the DC-DDD estimated $70,000 for FY 2006 telephone costs. However, only
$47,203 of the $70,000 telephone costs was posted to the accounting records of the DC-DDD.
10
  Costs such as occupancy, guard service, and telephone costs are estimated for each FY by the
management of the DC-DDD before the commencement of the FY. These estimated costs are pooled
with other agencies (within the DC-DDS) estimated costs to determine a pro rata share to allocate the
actual costs to the various DC-DDS agencies.
11
     OMB Circular A-87, Attachment A, section (C)(1)(j) (1997).
Page 4 - Laurie Watkins


Unclaimed Occupancy and Guard Service Costs

We found additional and allowable occupancy and guard service costs of $183,501 for
FY 2006 that were not estimated and subsequently not recorded in the accounting
records of DC-DDD. OMB Circular A-87 states “…costs must be necessary and
reasonable for proper and efficient performance and administration of federal
awards.” 12
           Occupancy Costs
           DC-DDD estimated and reported $450,000 for FY 2006 occupancy costs on
           Form SSA-4513. However, we found additional and allowable occupancy costs
           of $126,302 for FY 2006 were not recorded in DC-DDS’ accounting records.
           Occupancy costs are estimated each FY by DC-DDD management for budgetary
           purposes. These estimated costs are pooled with other agencies’ (within
           DC-DDS) estimated costs to determine a pro rata share to allocate actual costs
           to the various DC-DDS agencies. DC-DDD’s methodology used to estimate
           occupancy costs understated the actual costs incurred.
           Guard Service Costs
           DC-DDS reported $26,396 for guard services in the accounting records of
           DC-DDD. However, we found additional and allowable guard service costs of
           $57,199 for FY 2006 were not recorded in the accounting records of DC-DDD.

The information that details actual occupancy and guard service costs may be obtained
from the Office of Property Management. The DC-DDS should use actual costs of
occupancy and guard service to adjust year-end costs and report those actual costs in
the accounting system and on Form SSA-4513. If this is not feasible, the DC-DDS
needs to work with the DC-DDD to develop a reasonable estimate.

Unsupported Unliquidated Obligations

DC-DDD could not provide supporting documentation for $264,031 of the
$294,028 medical and occupancy unliquidated obligations it reported on the FY 2006
Form SSA-4513. SSA’s instructions state, in part, that valid obligations should be
supported by documents/records that describe the nature of the obligations and support
the amounts recorded. 13 SSA's ability to effectively manage the allocation and use of
budgeted funds is impeded when unliquidated obligations are not accurately reported.
Therefore, we have determined that the FY 2006 unliquidated medical and occupancy
costs were misstated.




12
     Id. at (C)(1)(a).
13
     Supra note 4.
Page 5 - Laurie Watkins


      Medical Costs
      As of June 30, 2007, (9 months after the end of FY 2006), the DC-DDD reported
      unliquidated medical cost obligations of $184,028 on its Form SSA-4513. These
      unliquidated obligations consisted of Consultative Examinations and Medical
      Evidence of Record costs. Of the costs, the DC-DDD provided supporting
      documentation for only $7,182.
      Occupancy Costs
      As of June 30, 2007, the DC-DDD reported unliquidated obligations for
      occupancy costs of $110,000 on its FY 2006 Form SSA-4513. The obligation
      was related to construction at the DC-DDD office. The DC-DDD could only
      provide supporting documentation for $22,815 of these costs.


We believe this misstatement occurred because DC-DDD did not periodically review
unliquidated obligations to identify obligations that were valid. Further, the DC-DDD
was unable to reconcile unliquidated obligations. Upon discussion with DC-DDD
management, the FY 2006 amount of unliquidated obligations did not represent actual
obligations to pay but an estimate of unpaid obligations. However, management stated
no process exists to identify and report unliquidated obligations. The DC-DDD needs
sufficient internal controls to ensure SSA does not under- or over-fund its operations.


CONCLUSION AND RECOMMENDATIONS

Generally, the DC-DDS and DC-DDD had improved their internal controls over
accounting and reporting of administrative costs. However, DC-DDS needed to work
with SSA to strengthen the internal controls over travel, telephone, occupancy, and
guard service costs. Furthermore, the DC-DDD needed to maintain supporting
documentation to ensure the reasonableness of amounts reported as unliquidated
obligations.

We recommend SSA:

   1. Request a refund of $2,750 for travel costs inappropriately charged to SSA.

   2. Work with the DC-DDD to obtain support from Office of Property Management
      for the remainder of the FY 2006 telephone costs and request a refund for
      telephone costs where supporting documentation could not be obtained.
Page 6 - Laurie Watkins


   3. Provide funding of $183,501 to the DC-DDD for the FY 2006 occupancy and
      guard service costs that were not claimed. Furthermore, SSA should work with
      the DC-DDD to obtain support from DC-OPM to facilitate more accurate
      estimates for occupancy and guard service costs.

   4. Request the DC-DDD to reduce the unliquidated medical obligations by
      $176,846 and the unliquidated occupancy obligations by $87,185.

   5. Work with the DC-DDD to develop a process to determine actual costs or
      reasonable estimates related to unliquidated obligations.

AGENCY COMMENTS
The SSA regional office agreed with our recommendations. See Appendix C for the full
text of the regional office’s comments.

STATE AGENCY COMMENTS

DC-DDS agreed with our recommendations. See Appendix D for the full text of the
DC-DDS’ comments.

OIG RESPONSE

We appreciate the comments received from SSA’s regional office and the DC-DDS and
believe the responses and planned actions adequately address our recommendations.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – State Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act      Social Security Act
CE       Consultative Examination
DC-DDD   District of Columbia Disability Determination Division
DC-DDS   District of Columbia Department on Disability Services
DDS      Disability Determination Services
DC-DHS   District of Columbia Department of Human Services
DC-OPM   District of Columbia Office of Property Management
DI       Disability Insurance
FY       Fiscal Year
IBM      International Business Machines Corporation
OMB      Office of Management and Budget
POMS     Program Operations Manual System
RSA      Rehabilitation Services Administration
SAS      Statement on Accounting Standard
SSA      Social Security Administration
SSI      Supplemental Security Income
                                                                                   Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•     Reviewed applicable Federal laws and regulations, pertinent parts of the Social
      Security Administration’s (SSA) Program Operations Manual System and other
      criteria relevant to administrative costs claimed by the District of Columbia’s
      Disability Determination Division (DC-DDD).

•     Interviewed staff and officials at the DC-DDD and District of Columbia’s Department
      on Disability Services (DC-DDS).

•     Evaluated and tested internal controls regarding accounting and financial reporting.

•     Examined specific administrative expenditures (Personnel, Medical Services,
      Indirect Costs, and All Other Nonpersonnel Costs) incurred and claimed by the
      DC-DDD for Fiscal Year (FY) 2006. We used statistical sampling to select
      expenditures to test for documentation of the Medical Services, Personnel, and All
      Other Nonpersonnel Costs.

•     Examined and recalculated indirect costs claimed by the DC-DDD for FY 2006.

We determined the data provided by DC-DDS used in our audit were sufficiently
reliable to achieve our audit objectives. We assessed the reliability of the data by
reconciling them to the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.
Additionally, we relied on the DC-DDD I-Levy1 Case Processing System (I-Levy)
records for our consultative examination (CE) analysis. We believe, for this analysis,
the I-Levy records were sufficiently reliable. We performed our audit work at the DC-
DDS and DC-DDD offices in Washington, D.C. We conducted fieldwork from July
through September 2007. Our audit was conducted in accordance with generally
accepted government auditing standards.




1
    Disability claims are processed on an IBM Corporation Model AS/400 computer using I-Levy software.


                                                    B-1
METHODOLOGY
Our sampling methodology encompassed the four general areas of costs reported on
the Form SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other
Nonpersonnel Costs. We obtained electronic records that supported the Personnel,
Medical, and All Other Nonpersonnel Costs for FY 2006. These records were obtained
from the District of Columbia’s Relational Statewide Accounting and Reporting System
used by the District of Columbia’s Department on Disability Services for the preparation
of the Form SSA 4513. Analytical work was conducted for the indirect costs (see the
indirect cost section below). We obtained I-Levy records for our comparison of CE fees
per the DC-DDD fee schedule to the Medicare fee schedules for Calendar Years 2006.

Personnel Costs

We selected 2 pay periods in May 2006. We performed tests for 100 percent of the
DC-DDD employees for the 2 pay periods. Also, we tested DC-DDD payroll records to
ensure it correctly paid employees and adequately documented these payments.

For medical consultant costs, we selected the month of May 2006. We performed tests
for 100 percent of the DC-DDD medical consultants. Also, we tested the medical
consultant records to ensure they were paid correctly in accordance with approved
contracts.

Medical Costs

We sampled 50 items using a stratified random sample of medical costs based on the
proportion of medical evidence of record and CE costs to total medical costs claimed.
Also, we reviewed two additional FY 2006 medical evidence records that were included
in the DC-DDD accounting records. Additionally, we conducted analytical work using I-
Levy 2 data records to determine if the DC-DDD rates exceed the highest rate paid by
Federal or other agencies in the District of Columbia for the same or similar types of
service.

Indirect Costs

We calculated the DC-DDD indirect costs for FY 2006 by applying the federally
approved rates 3 to the payroll cost bases (direct salaries and wages including all fringe
benefits). For the Form SSA-4513 reports, for the period ended March 31, 2007, we
applied the final rate of 41.9 percent for the period October 1, 2005 to
September 30, 2006.




2
    Disability claims are processed on an IBM Corporation Model AS/400 computer using I-Levy software.
3
    Rates approved by the District of Columbia’s Department on Disability Services.


                                                     B-2
All Other Nonpersonnel Costs

We selected a stratified random sample of 50 items from the All Other Nonpersonnel
Costs category (except for occupancy). Before selecting the sample items, we stratified
the transactions in the nine cost categories. We then distributed the 50 sample items
between categories based on the proportional distribution of the costs. Also, we
conducted a 100 percent review for the following expenditure categories.

      ▪   Occupancy costs – seven items from the DC-DDD accounting records.
      ▪   Security – three items from the DC-DDD accounting records.
      ▪   Telephone – five items from the DC-DDD accounting records.

Subsequent Events

On October 19, 2007, the Chief of the DC-DDD was provided with a 15-day notice of
termination of his employment with the District Department on Disability Services. The
Chief was employed under the provisions of the Management Supervisory Service,
which is an at-will employment status. The Human Capital Administrator for the District
of Columbia, Department on Disability Services, informed us that termination can be
initiated without cause and this termination was for non-disciplinary reasons. Also, in
November 2007, two District of Columbia employees were arrested for a real property
tax adjustment refund scheme. To satisfy ourselves that there was no fraudulent
activity within the DC-DDD by the Chief of the DC-DDD or other individuals we
interviewed several key personnel in accordance with Statement on Accounting
Standard Number 99 – Consideration of Fraud in a Financial Statement Audit.




                                          B-3
                  Appendix C

Agency Comments
February 16, 2008
Signed Draft Report (A-15-08-18019) DC DDS--Philadelphia Response



Thank you for the opportunity to respond to the recommendations provided in
the draft report on the District of Columbia's Disability Determination Division's
Internal Controls over the Accounting and Reporting of Administrative Costs
(A-15-08-18019) for fiscal years 2005 and 2006. Status of the recommendations
contained in the report are shown below. The information shown incorporates
the DC DDS response to the draft report.

Recommendation #1:
Request a refund of $2,750 for travel costs inappropriately charged to SSA.

Response:
The DC DDD concurs with this recommendation. We have asked the DDS to
provide us with the refund of $2,750 by March 31, 2008.

SSA will follow up on this action item.

Recommendation #2:
Work with the DC DDD to obtain support from Office of Property Management
(OPM) for the remainder of the FY 2006 telephone costs and request a refund
for telephone costs where supporting documentation could not be obtained.

Response:
The DC-DDD obtained support for $9,100 of the $47,203 in telephone expenses
charged in FY 2006. We are working with the DC-DDD to obtain additional
supporting documentation from DC-OPM to resolve the remaining unsupported
charges of $38,103. A refund will be requested for any unsupported costs.

SSA will follow up on this action item.

Recommendation #3
Provide funding of $183,501 to the DC-DDD for the FY 2006 occupancy and
guard service costs that were not claimed. Furthermore, SSA should work with
the DC-DDD to obtain support from DC-OPM to facilitate more accurate
estimates for occupancy and guard service costs.

Response:
The DC DDD concurs with this recommendation. We have requested that the
DC-DDD submit an amended fiscal report (SSA-4513) for FY 2006 that includes
the charges of $183,501 for these costs. Upon receipt of the amended SSA-
4513 report, SSA will fund these costs. We are working with the DC DDD to
obtain support from DC-OPM to facilitate more accurate estimates for occupancy
and guard service costs.


                                            C-1
SSA will follow up on this action item.

Recommendation #4
Request the DC DDD to reduce the unliquidated medical obligations by
$176,846 and the unliquidated occupancy obligations by $87,185.

Response:
The DC DDD concurs that unliquidated medical obligations should be reduced
by $176,846. We have requested the DC-DDD to submit an amended SSA-
4513 report for FY 2006 which removes the unliquidated medical obligations.
Upon receipt of the amended SSA-4513 report, SSA will reduce these
obligations.

The DC DDD has agreed to submit an amended SSA-4513 for FY 2006 to
remove the unliquidated occupancy obligations of $87,185. Upon receipt of the
amended SSA-4513 report, SSA will reduce these obligations.

SSA will follow up on this action item.
.
Recommendation #5
Work with the DC-DDD to develop a process to determine actual costs or
reasonable estimates related to unliquidated obligations.

Response:
We will work with the DC DDD to develop a process to determine actual cost or
reasonable estimates related to unliquidated obligations. The DC DDD concurs
that this should be a joint ongoing effort.

SSA will follow up on this action item.

Should you have any questions regarding this response, please contact Paul
Armstrong at 215-597-9831 in the Philadelphia Region Center for Disability
Programs.


                                                    /s/
                                                    Laurie Watkins




                                     C-2
                        Appendix D

State Agency Comments
                         GOVERNMENT OF THE DISTRICT OF COLUMBIA
                         OFFICE OF THE CHIEF FINANCIAL OFFICER



Department on Disability Services



March 6, 2008

Mr. Patrick P. O’Carroll, Jr., Inspector General
Social Security Administration
Office of the Inspector General
Office of Audit
Baltimore, MD 21235-0001

Dear Mr. O’Carroll:

The following are the responses and correction action plan for the recommendations
included in the District of Columbia’s Disability Determination Division’s (DDD)
Internal Controls over the Accounting and Reporting of Administrative Costs (A-15-08-
18019) for the Department on Disability Services (DDS):

    1. Request a refund of $2,750 for travel costs inappropriately charged to SSA.

        DC-DDS Response

        We concur with this recommendation. A check will be issued to SSA and
        forward to Paul Armstrong by March 31, 2008.

    2. Work with the DC-DDD to obtain support from Office of Property Management
       (OPM) for the remainder of the FY 2006 telephone costs and request a refund for
       telephone costs where supporting documentation could not be obtained.

        DC-DDS Response

        We concur with this recommendation. If available, additional documentation will
        be submitted to SSA by April 30, 2008.

    3. Provide funding of $183,501 to the DC-DDD for the FY 2006 occupancy and
       guard service costs that were not claimed. Furthermore, SSA should work with
       the DC-DDD to obtain support from DC-OPM to facilitate more accurate
       estimates for occupancy and guard service costs.
                               th
                       1125 15 Street, NW * Suite 9/900 * Washington, DC 20005
                             Phone: (202) 730-1551 * Fax: (202) 730-1845




                                                D-1
                         GOVERNMENT OF THE DISTRICT OF COLUMBIA
                         OFFICE OF THE CHIEF FINANCIAL OFFICER



Department on Disability Services

        DC-DDS Response

        We concur with this recommendation. DDS will revise the FY 2006 SSA-4513
        report for the period ending March 31, 2008 due April 30, 2008 to reflect the
        additional occupancy costs. DDS will continue to work with the District’s Office
        of Property Management to obtain accurate occupancy and guard services costs.

    4. Request the DC-DDD to reduce the unliquidated medical obligations by $176,846
       and the unliquidated occupancy obligations by $87,185.

        DC-DDS Response

        We concur with this recommendation. DDS will revise the FY 2006 SSA-4513
        for the period ending March 31, 2008 due April 30, 2008 to reduce the
        unliquidated medical obligations and unliquidated occupancy obligations.

    5. Work with the DC-DDD to develop a process to determine actual costs or
       reasonable estimates related to unliquidated obligations.

        DC-DDS Response

        We concur with this recommendation. A representative from the Office of the
        Chief Financial Officer (OCFO) and the DDS administration will work with the
        DC-DDD to determine a reasonable estimate related to unliquidated obligations.

        If you have any questions or require additional information, please contact Ted
        Daniels, Acting Deputy Director, Rehabilitation Services Administration at (202)
        442-8686 or Delicia Moore, Agency Fiscal Officer, DDS at (202) 730-1551.

        Sincerely,

          /S/

        Delicia Moore
        Agency Fiscal Officer

                         1125 15th Street, NW * Suite 9/900 * Washington, DC 20005
                               Phone: (202) 730-1551 * Fax: (202) 730-1845




                                                   D-2
                                                                          Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kristen Schnatterly, Acting Audit Director, Financial Audit Division

   Mark Meehan, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Ronald Anderson, Auditor-in-Charge

   Steven Sachs, Senior Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-15-08-18019
                              DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
